U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Apple Inc. v. Optis Cellular Technology, LLC, et al.
S.Ct. No. 21-118
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 26,
2021, and placed on the docket on July 28, 2021. The government’s response is due on August
27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-0118
APPLE INC.
OPTIS CELLULAR TECHNOLOGY, LLC, ET AL.

CATHERINE MARY AGNES CARROLL
WILMER CUTLER PICKERING HALE AND
DORR
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-663-6072
CATHERINE.CARROLL@WILMERHALE.COM
MARK D. SELWYN
WILMER CUTLER PICKERING HALE AND
DORR LLP
2600 EL CAMINO REAL
SUITE 400
PALO ALTO, CA 94306
ALYSON ZUREICK
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007

